<html>
<title> - OVERSIGHT OF THE TRANSPORTATION SECURITY ADMINISTRATION: FIRST HAND AND GOVERNMENT WATCHDOG ACCOUNTS OF AGENCY CHALLENGES</title>
<body><pre>[Senate Hearing 114-439]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-439
 
                OVERSIGHT OF THE TRANSPORTATION SECURITY
                     ADMINISTRATION: FIRST HAND AND
           GOVERNMENT WATCHDOG ACCOUNTS OF AGENCY CHALLENGES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              JUNE 9, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 
 
 
 
 
        
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 97-353 PDF                WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001           
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                 Michael Lueptow, Investigative Counsel
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Brian Turbyfill, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     3
    Senator Ernst................................................    18
    Senator Sasse................................................    20
    Senator Ayotte...............................................    22
    Senator McCaskill............................................    24
    Senator Baldwin..............................................    27
    Senator Lankford.............................................    29
Prepared statements:
    Senator Johnson..............................................    37
    Senator Carper...............................................    39

                               WITNESSES
                         Tuesday, June 9, 2015

Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security.......................................................     4
Rebecca Roering, Assistant Federal Security Director-Inspections, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security..............................................     6
Robert J. MacLean, Federal Air Marshal, Office of Law 
  Enforcement, Federal Air Marshal Service, Transportation 
  Security Administration, U.S. Department of Homeland Security..     9
Jennifer Grover, Director, Transportation Security and Coast 
  Guard Issues, Homeland Security and Justice Team, U.S. 
  Government Accountability Office...............................    11

                     Alphabetical List of Witnesses

Grover, Jennifer:
    Testimony....................................................    11
    Prepared statement...........................................    93
MacLean, Robert J.:
    Testimony....................................................     9
    Prepared statement...........................................    68
Roering, Rebecca:
    Testimony....................................................     6
    Prepared statement...........................................    59
Roth, Hon. John:
    Testimony....................................................     4
    Prepared statement...........................................    45

                                APPENDIX

Prepared statement for the Record from Jason Harrington..........    41
Response to post-hearing questions submitted for the Record
    Mr. Roth.....................................................   108
    Ms. Grover...................................................   113


                    OVERSIGHT OF THE TRANSPORTATION



                   SECURITY ADMINISTRATION: FIRSTHAND



                    AND GOVERNMENT WATCHDOG ACCOUNTS



                          OF AGENCY CHALLENGES

                              ----------                              


                         TUESDAY, JUNE 9, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:34 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Sasse, 
Carper, McCaskill, Baldwin, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. The Committee will come to order.
    I want to first welcome our witnesses. Thank you for your 
very thoughtful testimony that you have provided in written 
form, and I am looking forward to your oral testimony and your 
answers to our questions.
    I do want to point out that this hearing is necessary. I 
think it is unfortunate that some information was leaked prior 
to our ability to really completely analyze it. We want to make 
sure, as we are asking questions, as you are answering 
questions, that we do not reveal classified or sensitive 
information to give our enemies information to harm us. But the 
fact of the matter is if we ever are going to solve any 
problem--and I have said this repeatedly from this chair--we 
have to recognize and acknowledge reality. We have to describe 
it.
    The purpose of any hearing under my chairmanship is that in 
the end, following the hearing, every Member on the dais, 
hopefully every member of the audience, takes the first step in 
solving any problem, which is admit we have one.
    And certainly as I have been reading the briefings, I have 
been thinking about the struggles with the Transportation 
Security Administration (TSA) since it was first established, 
understanding how it has two missions, and they are, by and 
large, almost completely contradictory.
    On the one hand, we are looking for 100 percent security to 
keep not only just airline but all public transportation 100 
percent safe and secure.
    On the other hand, we are looking for complete efficiency 
so that lines do not back up. We are looking for efficient 
throughput through the system. It is an enormously complex and 
difficult task, and because of the leaked information--and, 
Inspector General John Roth, I have to commend you for your 
independence, for taking a hard look at this, doing the 
inspections, the investigations that I think are appropriate. 
We are finding out that that contradictory goal, we are not 
meeting both of those, not by a long shot.
    So certainly with Secretary Johnson, with the Inspector 
General (IG), with the Acting TSA Administrator now, and the 
TSA nominee, I have had some pretty serious discussions, and I 
have asked them to completely analyze the problem, start 
thinking outside the box. We need to look at more effective 
solutions, and we have to start prioritizing what we can do 
that is going to improve security in the most effective way.
    An example I will use is, after September 11, 2001 a pretty 
simple solution has probably provided us the greatest security 
so that at least airlines cannot be used as the most efficient 
weapon, most effective weapon, being able to fly into things 
like the World Trade Center, and that was just locking the 
doors and securing the cockpit door. But we found out with 
Germanwings that is not a complete and total solution either. 
It creates some unintended consequences.
    So, again, the point I am making is this is an enormously 
complex and difficult issue. We need to approach the solution 
soberly and honestly and lay the problem out.
    I would like to, first of all, ask unanimous consent to 
have my written opening statement entered in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I would also point out that we had another witness, Mr. 
Jason Harrington, who is unable to make it due to illness. He 
was a transportation security officer (TSO) at the Chicago 
O'Hare International Airport from 2007 to 2013. He submitted 
written testimony in preparation for this hearing, and so I ask 
unanimous consent to enter his testimony in the record\2\ as 
well.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Harrington appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    But I would like to just read a couple stats that kind of 
describe the difficult mission of the TSA. TSA is compromised 
of 46,000 transportation security officers. Twenty percent of 
the TSA employees are veterans. That is a good thing. I would 
almost like to see that increased.
    TSA screens 2 million passengers each day--nearly 160 
million every year. That is an enormous challenge and task. TSA 
screens 1.1 million checked bags and 3 million carry-on bags 
for explosives and other dangerous items on a daily basis. TSA 
used more than 700 advanced imaging technology (AIT) machines 
at airports nationwide.
    TSA is responsible for the security of 25,000 domestic 
flights per day, 2,500 outbound international flights per day. 
It also secures 4 million miles of roadways, 140,000 miles of 
railroad track, 600,000 bridges and tunnels, 350 maritime 
ports, 2.6 million miles of pipeline.
    Again, it is an enormous challenge, so we need to recognize 
that reality and, again, take a look at this problem as one 
that is a significant challenge and talk about it as honestly 
as possible if we are going to really find solutions.
    With that, I will turn it over to our Ranking Member, 
Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. Thanks for bringing 
us all together today. Our thanks to our witnesses. Good to see 
you all. And thank you for your attendance, your preparation, 
and your willingness to respond to our questions.
    Few Federal agencies interact with the American people more 
on a daily basis than does TSA. The men and women who work 
there have, as the Chairman has said, a very difficult but 
extremely important job.
    Last month, I spoke on the Senate floor about two women who 
have dedicated their lives to keeping our aviation system and 
its users secure by working for TSA. In fact, one of these two 
women was shot in the line of duty and showed up for work the 
very next day. Every day, these women and their colleagues, 
thousands of them around the country, work in a very 
challenging environment to keep our aviation system safe and 
those of us who use it safe and secure. We do not do enough to 
acknowledge that and to thank them when they do their jobs 
well, which is almost all the time.
    While I believe it is important for us to recognize 
exemplary performance when it is done at TSA or throughout 
other parts of the Department of Homeland Security (DHS) more 
often than we do, this Committee also has an obligation to 
exercise our oversight responsibilities when performance falls 
well short of that standard.
    Thanks to our witnesses before us today, we have been 
alerted to a number of instances where performance by TSA and 
its employees appears to have been disappointing and even 
troubling. Just yesterday, for example, we learned from the DHS 
Inspector General that 73 individuals with possible links to 
terrorism have been granted credentials to access secure areas 
of airports across our Nation.
    And last week, of course, we learned about significant 
vulnerabilities at passenger screening checkpoints uncovered by 
the Inspector General. The reported failure rates for detecting 
prohibited items at checkpoints are more than troubling. They 
are unacceptable. And I look forward to reviewing the 
Department of Homeland Security Inspector General's full report 
and recommendations later this summer. That said, I am 
encouraged by the swift action taken by the Secretary of 
Homeland Security to address the Inspector General's findings.
    Since 2011, the Transportation Security Administration has 
transitioned from a one-size-fits-all screening philosophy to 
one that is more risk-based. That approach is designed to allow 
TSA to deploy its limited resources to the areas where we face 
the greatest threat.
    However, as the Inspector General and the General 
Accountability Office (GAO) have identified, such a swift 
transition may have created vulnerabilities in the system. 
Given recent reports, it is more important than ever for the 
Transportation Security Administration to have a permanent, 
Senate-confirmed leader in place. I thank the Chairman and his 
staff for working so quickly and cooperatively with my staff so 
that we can move the nomination of Vice Admiral Peter V. 
Neffenger, which we will examine in a hearing tomorrow.
    With that, we look forward to the testimony, and we thank 
the witnesses for appearing here today. I am grateful that the 
current front-line employees have joined us today to discuss 
their perspectives on how to improve TSA.
    I will close with one last personal thought. My father used 
to drive my sister and me crazy when we were kids growing up by 
saying some of the same things over and over and over again. 
And one of these things he said over and over again is that if 
the job is worth doing, it is worth doing well. He said that 
hundreds of times, maybe thousands of times. And out of that I 
took this lesson: We should be focused on perfection. We will 
never get there, but that should be our goal. And if it is not 
perfect, we need to make it better.
    Clearly, there are some things going on at TSA that fall 
well short of perfection. Our job is to help you get closer, 
help them help TSA to get closer to that goal to better protect 
the people who use the airlines, including all of us.
    Thank you so much.
    Chairman Johnson. Thank you, Senator Carper. I would only 
add that in our quest for perfection, the way you achieve it is 
through continuous improvement. I think that is the right kind 
of attitude here.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Roth. I do.
    Ms. Grover. I do.
    Mr. MacLean. I do.
    Ms. Roering. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is John Roth. Mr. Roth is the Inspector 
General for the Department of Homeland Security. Prior to 
serving as DHS's Inspector General, Mr. Roth was Director of 
the Office of Criminal Investigations at the Food and Drug 
Administration (FDA) and also had a decorated career as a 
Federal prosecutor with the Department of Justice (DOJ).
    Inspector General Roth.

 TESTIMONY OF HONORABLE JOHN ROTH,\1\ INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for inviting me here to 
testify today to discuss our work examining TSA's programs and 
operations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Hon. Roth appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    Before discussing TSA's challenges, I would like to 
acknowledge the TSA whistleblowers that I join on this panel 
today. We are grateful when TSA employees--as well as employees 
from other parts of the Department of Homeland Security--are 
willing to step forward to identify problems within the agency. 
Whistleblower disclosures have saved lives as well as taxpayer 
dollars, and whistleblowers play a crucial role in keeping our 
Department efficient and accountable.
    We review over 16,000 complaints per year, more than 300 
per week, to better understand and respond to potential waste, 
fraud, and abuse in the Department's programs and operations.
    With regard to TSA, we face a classic asymmetric threat in 
attempting to secure our transportation systems: TSA cannot 
afford to miss a single, genuine threat without potentially 
catastrophic consequences, yet a terrorist only needs to get it 
right once. TSA's thousands of transportation security officers 
conduct tedious tasks that require constant vigilance. 
Complacency can be a huge detriment to TSA's ability to carry 
out its mission. Ensuring consistency across DHS's largest 
workforce would challenge even the best of organizations.
    Unfortunately, although nearly 14 years have passed since 
TSA's inception, we remain deeply concerned about its ability 
to execute its important mission. Since 2004, we have published 
more than 115 audit and inspection reports about TSA's programs 
and operations. We have issued hundreds of recommendations to 
attempt to improve TSA's efficiency and effectiveness.
    We have conducted a series of covert penetration tests--
essentially testing TSA's ability to stop us from bringing in 
simulated explosives and weapons through checkpoints, as well 
as testing whether we could enter secured areas through other 
means. We identified vulnerabilities caused by human and 
technology-based failures.
    I am aware of the media reports regarding our most recent 
testing. Although the details of those tests are classified, 
and I will not be able to speak to the specifics of them in the 
hearing today, I welcome the opportunity to brief Members of 
this Committee and their staff regarding our findings in an 
appropriate and closed setting.
    We have also audited and reported on TSA's acquisitions. 
Our audit results show that TSA faces significant challenges in 
contracting for goods and services. Despite spending billions 
on aviation security technology, our testing of certain systems 
has revealed no resulting improvement.
    We have examined TSA's approach to risk-based screening. 
While we applaud the concept of a risk-based approach in 
transportation security, our audits and inspections have 
uncovered significant vulnerabilities, and we have deep 
concerns regarding the manner in which TSA manages this risk. 
This includes TSA's use of managed inclusion, its risk 
assessment rule in granting expedited screening to those who 
are not part of PreCheck, and the administration of the 
PreCheck program itself.
    We have also examined the performance of TSA's workforce, 
which is largely a function of who is hired and how they are 
trained and managed. Our audits have repeatedly found that 
human error--often a simple failure to follow protocol every 
time--poses significant vulnerabilities.
    We have also looked at how TSA plans for, buys, deploys, 
and maintains its equipment and have found challenges at every 
step in the process. These weaknesses have a real and negative 
impact on transportation security as well.
    TSA has taken some steps to implement our recommendations 
and address security vulnerabilities. Nevertheless, some 
problems appear to persist. While TSA cannot control all risks 
to transportation security, many issues are well within its 
control. Sound planning and strategies for efficiently 
acquiring, using, and maintaining screening equipment, for 
example, would go a long way toward improving overall 
operations. TSA needs to have a better understanding of the 
limitations of its technology and develop strategies to counter 
those limitations. Better training and better management of 
TSOs would help mitigate the effects of human error that, 
although never eliminated, could be reduced.
    Taken together, TSA's focus on management practices and 
oversight of its technical assets and workforce would help 
enhance security as well as customer service for air 
passengers.
    Mr. Chairman, this concludes my prepared statement. I am 
happy to take any questions you or other Members of the 
Committee may have. Thank you.
    Chairman Johnson. Thank you, Mr. Inspector General.
    Our next witness is Rebecca Roering. Ms. Roering is the 
Assistant Federal Security Director for Inspections at the 
Minneapolis-St. Paul International Airport. During her 25 years 
of government service, Ms. Roering has also served the Federal 
Aviation Administration (FAA) as a Federal Air Marshal (FAM) 
and Civil Aviation Security Inspector. Ms. Roering.

  TESTIMONY OF REBECCA ROERING,\1\ ASSISTANT FEDERAL SECURITY 
DIRECTOR--INSPECTIONS, TRANSPORTATION SECURITY ADMINISTRATION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Roering. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for inviting me here today 
to discuss important security concerns related to the TSA and 
security at our Nation's airports.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Roering appears in the Appendix 
on page 59.
---------------------------------------------------------------------------
    The mission of TSA is to ensure the freedom of movement for 
people and commerce, which is undeniably a difficult challenge. 
It is also the mission of TSA to protect the traveling public 
against terrorist attacks. The ability of TSA to execute its 
mission has been called into question by many oversight groups.
    My testimony today will focus on a number of the security 
concerns and agency policies that result in vulnerabilities and 
morale issues across our workforce.
    Over recent years, TSA has hired into leadership positions 
a number of former airline executives and others who place more 
emphasis on customer service and passenger wait times than on 
security and detection rates. Any wait time that is deemed by 
the agency as excessive requires immediate reporting, a 
thorough analysis, and corrective action. Conversely, the local 
monthly testing of our officers to determine their ability to 
detect weapons and explosives is not associated with any 
performance metric. When this testing results in a failure to 
detect the item, there is basic remedial training required 
before the officer may return to duty. A TSA officer may never 
be subjected to a covert test based on the current volume of 
assigned tests each month, limited resources to conduct the 
tests, and the sheer volume of our officers. This lack of 
realistic testing on a regular basis leads to complacency in 
our workforce.
    It is not until recently, actually within the last few 
weeks, that detection rates of improvised explosive devices 
(IEDs) has become a topic of discussion at TSA. This is the 
direct result of covert testing at numerous airports 
identifying detection rates that caused great concern. 
Leadership recognized that poor detection rates are, in part, 
related to the poor morale that exists across our workforce.
    The 2014 Federal Employee Viewpoint Survey resulted in the 
DHS receiving among the lowest ratings of any Federal 
Government agency, and TSA receiving more than their fair share 
of low marks. The survey demonstrated that while our frontline 
employees feel strongly that the work they do is important, 
they are not valued by our leadership. The job of a TSA officer 
is a challenging one, with a great deal of pressure and 
scrutiny. A culture of fear and distrust has been created in 
the agency, also impacting the morale and performance of our 
employees. This is clearly documented in the results of the 
survey.
    Equally as troubling are the security gaps associated with 
the TSA PreCheck program. While a risk-based approach to 
security screening is essential, TSA has expanded PreCheck to 
large populations of passengers who have not enrolled in or 
paid for the program. In the fall of 2013, I expressed my 
concerns with the expansion of PreCheck to my leadership as 
well as the TSA Office of Inspections (OOI). I later reported 
the concerns to the Office of Special Counsel (OSC) for 
investigation. My allegations were substantiated by the DHS 
Inspector General in a report titled ``Security Enhancements 
Needed to the TSA PreCheck Initiative.''
    TSA is handing out PreCheck status like Halloween candy in 
an effort to expedite passengers as quickly as possible, 
despite self-admitted security gaps that are being created by 
the process. The TSA PreCheck enrollment program did not meet 
the expectations in terms of volume; therefore, PreCheck rules 
keep expanding as a matter of efficiency even though the agency 
is well aware of the associated risks.
    As documented in recent reports, the insider threat 
continues to present a security concern at our Nation's 
airports. Although some form of screening is conducted on cargo 
that is transported on passenger aircraft, catering supplies, 
checked baggage, and, of course, passengers, there are other 
airport employees who have access to sterile areas of the 
airport who are subjected to only criminal history record 
checks and security threat assessments. This group has 
unimpeded access to aircraft, and it was discovered that some 
of these security identification display area (SIDA) badged 
employees who had worked at the Minneapolis-St.Paul (MSP) 
Airport later traveled to Syria to fight for the Islamic State 
of Iraq and the Levant (ISIL). TSA has increased the use of 
Playbook teams recently with a focus on insider threat.
    At many locations, and in my experience, the Federal 
Security Director (FSD) is reluctant to initiate enforcement 
action against the airport or air carriers. A conflict of 
interest exists when the FSD relies upon the airport and air 
carrier to provide certain services and, on the other hand, has 
overall responsibility for the execution of the regulatory 
program.
    Additionally, transportation security inspectors are being 
used by FSDs to perform a wide range of duties not related to 
their core functions. Such duties include moving bins at the 
checkpoints and conducting audits of Universal Enrollment 
Facilities to determine such items as whether or not there is 
hand soap in the restrooms or if the staff is friendly. These 
audits should be done by a contracting officer rather than 
regulatory inspectors. DHS should reconsider the reporting 
structure for our inspectors to eliminate any potential 
conflicts, misuse of their time, and pressure to avoid 
enforcement actions.
    TSA uses prohibited personnel practices to pressure 
employees to resign when management wants them removed from the 
agency. When allegations of misconduct occur by employees in 
certain positions, the FSD must refer the allegations to the 
TSA Office of Inspection. If the Office of Inspection does 
investigate, they send criminal investigators to conduct 
investigations of even minor administrative matters. It is a 
waste of taxpayer dollars to use criminal investigators to 
conduct routine administrative investigations and also destroys 
the morale and trust of our workforce.
    In conclusion, the culture that exists at TSA is one of 
fear and distrust. While TSA cannot control all the risks 
associated with aviation security, leadership of the agency is 
certainly in a position to impact change. Better training and 
management of the workforce would result in an improvement to 
morale as well as detection rates. If a TSA employee feels 
valued and respected, the metrics will reflect this in a 
positive way. TSA should eliminate security gaps created by 
risk assessment rules in PreCheck, and DHS should reconsider 
the reporting structure for Inspectors to avoid any conflicts.
    Mr. Chairman, this concludes my prepared statement. I 
welcome any questions from you or any Members of the Committee. 
Thank you.
    Chairman Johnson. Thank you, Ms. Roering.
    Our next witness is Robert MacLean. Mr. MacLean is a 
Federal Air Marshal who blew the whistle about potential safety 
concerns regarding a TSA plan to alter mission schedules. Mr. 
MacLean was fired by TSA for disclosing this information, but 
he was eventually reinstated after successfully appealing his 
improper termination before the U.S. Supreme Court. He is 
currently a Federal Air Marshal based out of Los Angeles Field 
Office. Mr. MacLean.

TESTIMONY OF ROBERT J. MACLEAN,\1\ FEDERAL AIR MARSHAL, OFFICE 
OF LAW ENFORCEMENT, FEDERAL AIR MARSHAL SERVICE, TRANSPORTATION 
 ATTORNEY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. MacLean. Thank you, Chairman Johnson, Ranking Member 
Carper, and other Members of the Committee. It is a great honor 
to be here as an active-duty TSA Federal Air Marshal.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. MacLean appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    Due to my 12-year case that finished before the Supreme 
Court 4 years ago and my role as a national whistleblower 
liaison for the Federal Law Enforcement Officers Association 
(FLEOA), which is not a union, dozens of TSA Federal Air 
Marshals come to me with their concerns about aviation security 
threats. This is a huge responsibility, being a voice for those 
who are tasked with stopping terrorism.
    The public wants to continue enjoying the great privilege 
and miracle of flying on jetliners. They are tired of the 
complaints and want their tax money spent wisely on realistic 
measures. The 9/11 attacks should have proved how volatile it 
is inside a crowded, pressurized thin tube traveling 500 miles 
per hour 40,000 feet up in the sky.
    Air Marshals' most common concern: improved explosive 
devices, bombs. If a terrorist group puts thought into it, it 
is relatively easy to sneak small bombs into jets in order to 
blow up at high altitude. Bombs just will not pass through 
checkpoints, but purposely or not wittingly by airport workers 
or delivery drivers bringing in daily mega tons of items 
consumed by passengers in the boarding areas. That cargo 
includes food, drink, condiments, cooking oil, cleaning 
products, and then all of the packaging that goes with it. Then 
you have all of the dense stacks of newspapers, magazines, and 
books. This mountain is nowhere near getting the screening that 
passengers are getting at the checkpoints. A bomb smuggler will 
hide a needle in a hay wagon before sneaking a steak past a 
pack of wolves.
    One remedy: take more TSOs off checkpoints and get 
exhausted Air Marshals out of airline chairs and deploy them 
deep inside the bowels of the train stations and airports to do 
traditional foot patrol, such as the uniformed Visible 
Intermodal Prevention and Response Teams (VIPR) and the 
undercover Red Teams.
    When I flew missions, I desperately tried to find that 
terrorist. But instead I disrupted three illegal alien-
smuggling operations purely because of my experience learning 
the mundane routines of the traveling public, building rapport 
with the airport workers and local authorities, knowing the 
area real well, and just simply reading faces.
    TSA PreCheck, with the improvements Ms. Roering obviously 
pointed out, should be greatly expanded, and it should be free 
of charge. More people in PreCheck frees up resources to focus 
on attackers. I would like to see TSOs roaming airports with 
mobile PreCheck application kits and soliciting passengers 
during their delays.
    We need to have more faith in human intelligence gathering 
and the intuition of bold officers. But in order to get more 
Air Marshals on the ground, you need to completely secure the 
flight deck or the cockpit where the pilots are in control of 
the jet. Every flight deck should have a modified shotgun with 
an emergency lock switch. Shotgun pellets are ideal since the 
primary concern is to stop an attacker trying to force the door 
open. In a highly unlikely miss, shotgun pellets will not harm 
passengers or the aircraft. The group of pilots who use their 
own funds to travel to Artesia, New Mexico, spending a week 
being trained and issued a TSA .40-caliber semiautomatic pistol 
can miss and kill an innocent passenger in the very back of the 
cabin with a jacketed bullet. Once again, this is highly 
unlikely, but it is possible.
    Armed pilots are not allowed to carry their pistols on 
international flights due to very restrictive handgun laws in 
foreign countries. But a shotgun modified to stop one or two 
hijackers trying to break into the cockpit from 1 foot away 
would be inane for a host country to deny and risk another 9/
11-style attack. It is an extreme hazard whenever a pilot opens 
the flight deck door to use the lavatory or to get food and 
drink. An amped-up attacker can dive inside and destroy the 
jet.
    There is a cheap and perfect solution to this: secondary 
barriers. Ten horizontal cables attached to a vertical pole, a 
flight attendant can simply stretch across the front of the 
forward galley and lock in place. This barrier buys the flight 
crew plenty of time to quickly get the pilot back into the 
flight deck and lock the door.
    In order to control unruly passengers who could be suicidal 
attackers setting up a ruse for the law enforcement officers on 
board, every cabin should be equipped with restraint systems 
and nonlethal tools to restrain unruly passengers or stop 
murderous attackers. Flight crews and law enforcement officers 
need the legal authority to deputize and indemnify vetted, 
able-bodied passengers to protect themselves and the jet from 
destruction. We could do this process during our PreCheck. 
There is no reason why an athlete or a military member cannot 
walk deep into the cabin to restrain somebody. During PreCheck 
enrollment, we can ask passengers to volunteer to be these 
Deputy Air Marshals during critical events and qualify them at 
training centers.
    Passengers may do nothing because of the potential civil 
liability and because they are expecting Air Marshals to 
respond. An Air Marshal taken away from protecting the flight 
deck endangers the entire jet. The pilots may not be able to 
safely land a jet for hours over an ocean while attackers are 
going on a murder spree.
    In the case of absolute chaos in the cabin, the pilots need 
the ability to disorient attackers by shutting off all lighting 
or flashing blinding strobe lights or high-pitched sound 
alarms. And when that does not stop the mayhem, pilots can 
actually don oxygen masks and depressurize the cabin, knocking 
out the attackers due to the rapid breathing and heart rate. Do 
all of this and give the flight attendants and regular 
passengers the right to save their lives or the lives of others 
on the ground.
    You can assign Air Marshals in airports to find terrorists 
and bombs before they go up in the sky. Hiring thousands of 
flying Air Marshals after 9/11 was a natural reaction, but it 
should have only been a temporary detail and not a career. Not 
very many young and ambitious people yearn for a career mostly 
in an airline seat. When I was recruited, the experienced Air 
Marshals told me half the job would be flying, and the rest 
would be time to recover, train, and investigate. They stress 
that no one can sustain 5 years of flying 4 to 5 days a week. 
Fourteen years later, Air Marshals tell me there are still not 
ground opportunities. We should train Federal and local law 
enforcement officers to quickly deploy as reserve Air Marshals 
in order to respond to specific threats.
    Finally, all Federal employees are reluctant to report 
money wasted and dangerous security lapses because they do not 
want to gamble with their careers before the Merit Systems 
Protection Board (MSPB), the tiny underfunded agency that rules 
on whistleblower reprisal claims. For instance, FAA Aircraft 
Cabin Safety Inspector Kimberly Farrington blew the whistle on 
FAA 12 years ago. Her case was remanded several times to 
administrative judge, and in the last remand, she had a hearing 
18 months ago and still the judge has not made a decision.
    If I had a jury, I would have won 6 years ago. Federal 
employees are the only workers in the United States who do not 
have access to jury trials. A restaurant cook reporting spoiled 
food being served has more due process than an Air Marshal 
reporting security lapses that can kill hundreds of passengers 
and cripple the aviation industry.
    The list goes on of about what Air Marshals echo to me, so 
I have availed myself all week to meet with Members of Congress 
and my fellow TSA force. Many may think my proposals here are 
risky or even crazy, but I am limited in my opening statement 
to go into detail about how the benefits can greatly outweigh 
the risks. Other Air Marshals and I are just doing our best to 
think like a suicidal attacker. I hope we do not need another 
9/11 to prove we were accurate.
    I am excited to serve with the new leader of the TSA, 
Admiral Peter Neffenger. I really hope that he is soon 
confirmed. I look forward to answering your questions. Thank 
you. I apologize for going over time.
    Chairman Johnson. I appreciate your testimony and your 
willingness to blow the whistle, the courage to blow the 
whistle.
    Our next witness is Jennifer Grover. Ms. Grover is the 
Director of Transportation Security and Coast Guard Issues for 
the Government Accountability Office. Ms. Grover's work with 
the GAO includes assessing the vulnerabilities throughout the 
TSA's screening process. Ms. Grover.

   TESTIMONY OF JENNIFER GROVER,\1\ DIRECTOR, TRANSPORTATION 
SECURITY AND COAST GUARD ISSUES, HOMELAND SECURITY AND JUSTICE 
          TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Grover. Thank you. Good morning, Chairman Johnson, 
Ranking Member Carper, other Members, and staff. Last week, 
renewed concerns arose about TSA's screening systems and 
whether they are sufficient to identify prohibited items.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Grover appears in the Appendix on 
page 93.
---------------------------------------------------------------------------
    TSA has developed a layered security approach that is sound 
in principle, and GAO supports TSA's move toward risk-based 
screening. But to fully deliver the promised security 
protections under both traditional and expedited screening, TSA 
must do two things: first, take more rigorous steps to ensure 
that each layer of security works as intended; and, second, put 
systems in place to continuously monitor their effectiveness.
    Over many years, GAO has reported weaknesses in TSA's 
oversight of its screening systems, raising questions about 
whether TSA is falling short in its ability to ensure aviation 
security. TSA has taken steps to improve oversight of these 
systems, but additional actions are needed.
    Today we will focus on four areas: first, the Secure Flight 
Program, which matches passenger information against Federal 
Government watchlists to identify those who should not fly or 
should receive enhanced screening; second, the AIT systems, 
which are the full-body scanners used to screen passengers for 
prohibited items at the checkpoint; third, the managed 
inclusion screening process, which TSA uses to provide 
expedited screening to passengers not previously identified as 
low risk; and, fourth, criminal history checks done to vet 
airport workers.
    First of all, regarding Secure Flight, we found in 
September 2014 that TSA did not have timely or reliable 
information about the extent or causes of system matching 
errors, which occur when Secure Flight fails to identify 
passengers who were actual matches to the watchlist. In 
response to our recommendations, TSA has developed a mechanism 
to keep track of known matching errors and is considering 
methods to evaluate overall Secure Flight matching accuracy 
rates on an ongoing basis.
    Second, regarding the AIT body scanners, we found in March 
2014 that TSA did not include information about screener 
performance when they were evaluating AIT effectiveness; 
rather, TSA's assessment was limited to the accuracy of the AIT 
systems in the laboratory. However, after an AIT machine 
identifies a potential threat, a screening officer has to do a 
targeted patdown to resolve the alarm. Thus, the consistency 
with which the screeners conduct the patdowns properly and 
identify all threat items is key to ensuring the effectiveness 
of the AIT systems in the airport operating environment. 
Consequently, we recommended that TSA assess AIT effectiveness 
as a function of both the technology and the screening officers 
who operate it. TSA concurred with the recommendation and 
recently sent updated information about their efforts to 
address it, which are under review within GAO.
    Third, in December 2014, we found that TSA had not tested 
the security effectiveness of the managed inclusion process as 
it functions as a whole. As part of managed inclusion, TSA uses 
multiple layers of security, such as explosives detection 
devices and canines, to mitigate the inherent risk that is 
associated with screening randomly selected passengers in a 
system that was designed for low-risk passengers. However, if 
these security layers are not working as intended, then TSA may 
not be sufficiently screening passengers. TSA has tested the 
individual layers of security used in managed inclusion and 
reported them to be effective, but GAO has raised concerns 
about the effectiveness of some of those layers, such as the 
behavior detection officers (BDO). TSA is planning to complete 
testing of the managed inclusion system by mid-2016.
    Finally, regarding TSA's involvement in airport worker 
vetting, we found in December 2011 that TSA and airports were 
conducting background checks based on limited criminal history 
information. Specifically, TSA's level of access to the Federal 
Bureau of Investigations (FBI) criminal history records was 
excluding many State records. In response to our 
recommendation, TSA and the FBI confirmed that there was a risk 
of incomplete information, and the FBI has since reported 
expanding the criminal history records it provides to TSA for 
these security threat assessments.
    In conclusion, TSA has made progress improving its 
screening oversight, such as taking steps to assess the 
vulnerabilities in the Secure Flight Program and by working 
with the FBI to obtain access to more complete criminal 
background information. Yet more work remains to ensure that 
Secure Flight, AIT, and managed inclusion are working as TSA 
intends.
    Chairman Johnson, Ranking Member Carper, this concludes my 
statement, and I look forward to your questions.
    Chairman Johnson. Thank you, Ms. Grover.
    Inspector General Roth, I want to start with you, and I 
want to be careful in the way I ask the question, but can you 
speak to the level of preparation, the level of sophistication 
of the people on the Red Team in trying to assess the 
effectiveness of the system?
    Mr. Roth. That is going to be a very difficult question to 
answer in this environment. I will say that the testers we used 
are auditors. These are members of the OIG workforce. They do 
not have any specialized background or training in this kind of 
work. But, again, to go into more detail about this I think 
would be problematic.
    Chairman Johnson. OK. There are a bunch of accountants, 
which, I am an accountant as well, so----
    Mr. Roth. No insult to accountants. [Laughter.]
    Chairman Johnson. Can you speak to differences between 
airports? Did we see some airports perform a whole lot better 
than others so we could maybe see what works and what does not 
work?
    Mr. Roth. Again, I cannot get into the specifics of the 
actual results of the testing, and you should know that we have 
done field work in this area, but we have not written a report 
yet.
    Chairman Johnson. OK.
    Mr. Roth. The chronology is we do field work, and then we 
analyze the results, sort of do the kinds of comparisons that 
you are talking about, and then report them out.
    Chairman Johnson. OK.
    Mr. Roth. I will say, though, that the results were 
consistent across airports.
    Chairman Johnson. OK. I understand, so I will not go any 
further than that.
    I would like to talk about just the number of standard 
operating procedures (SOP), the number of protocols. Maybe Ms. 
Roering or whoever else wants to speak to that, how many are 
there? I mean, I will see a briefing. I have seen all the 
acronyms, and the point I am trying to make is how overwhelming 
these detailed standard operating procedures are for individual 
TSOs.
    Ms. Roering. Thank you for the question. Yes, sir, our 
number of standard operating procedures, offhand I do not know 
the specific number, but I can say there is a checkpoint SOP, a 
checked baggage SOP, an SOP for the ticket documenter/checker 
position, known crew member SOP, a BDO SOP, a passenger 
screening canine SOP, and those are just the ones I can think 
of off the top of my head.
    Chairman Johnson. There are a lot more. How detailed are 
all those SOPs?
    Ms. Roering. They are very detailed.
    Chairman Johnson. So, again, we are just humans, and it is 
kind of hard to have at your fingertips and the training 
involved of having somebody be able to follow every one of 
those SOPs with, again, the volume, the throughput that we are 
trying to achieve, is a real problem, isn't it?
    Ms. Roering. There are a number of very specific procedures 
in the SOP. During the training process, the SOPs are separated 
out so when you are being trained in that function, you would 
be referring to the SOP that applies.
    Some of the SOPs do not apply to all our officers across 
the workforce. For example, the BDO SOP would not need to be--a 
normal TSO would not need to know those SOPs as well as the 
managed inclusion and passenger screening canine SOP. So while 
there are a number of them, you do not have to be proficient in 
every single one of the SOPs.
    Chairman Johnson. In the first round of questioning, I do 
want to get into the PreCheck Program and my concern that what 
I think is a really good idea--and I think most people would 
agree it is a really good idea, but only if completely followed 
and only if we do complete background checks. So whoever is 
best able to answer the question in terms of how many people 
have been cleared for PreCheck--I have information here that it 
is about 100,000, but I am not sure that is accurate. And of 
the number that have been cleared, how many actually went 
through a thorough vetting that we would expect versus under 
pressure to, again, accomplish the throughput objective, how 
many have been approved in a very watered-down process? Ms. 
Grover, you seem to be ready to answer the question.
    Ms. Grover. Yes, sir. I believe that there are about a 
million people now who have applied for PreCheck, but there are 
about 7.2 million people who have a Known Traveler Number (KTN) 
who would routinely get PreCheck on their boarding pass because 
of their affiliation with certain groups, such as people who 
are in the Customs and Border Protection (CBP) Trusted Traveler 
Programs or DOD active-duty military. And then, of course, in 
addition to that, as was discussed earlier, there are people 
who can get PreCheck on a one-time basis through TSA's 
automated risk assessments or at the airport through random 
selection for managed inclusion.
    Chairman Johnson. OK. Talk to me a little bit about 
automated risk assessment.
    Ms. Grover. Yes, sir, automated risk assessment. So the 
first thing that TSA does is they check to see if a passenger 
is on one of the terrorist watchlists. If they are not, then 
TSA checks to see if the person is already a known traveler, so 
signed up with PreCheck and has a Known Traveler Number.
    If not, then all of the rest of the passengers are screened 
against a set of risk rules that TSA has designed based on 
intelligence and based on certain characteristics of the 
traveling passenger, including information about that specific 
flight that they are looking at. Then the individual can 
receive PreCheck on their boarding pass on a one-time basis.
    Chairman Johnson. Would anybody else like to comment on, 
again, kind of the watering down of the vetting process? Mr. 
Roth.
    Mr. Roth. And just so you understand, TSA has increased 
dramatically the use of PreCheck over the last several years. 
It has gone from really a test kind of a case to a situation 
where between 40 and 50 percent of all the traveling public 
gets an expedited screening, whether it is through managed 
inclusion, whether it is part of a Government Trusted Traveler 
Program, or whether it is through, as Ms. Grover talked about, 
these risk rules that apply----
    Chairman Johnson. So, again, as PreCheck was originally 
conceived with a full vetting process, how many people received 
the full vetting process to now 40 to 50 percent of the 
traveling public qualifying for PreCheck?
    Mr. Roth. TSA recently celebrated a million people who have 
applied for PreCheck through that vetting program. As Ms. 
Grover says, there are other Trusted Traveler Programs. For 
example, CBP has a Trusted Traveler Program that is very 
similar to PreCheck, actually more extensive than PreCheck. So 
those folks get grandfathered in. Obviously, Members of 
Congress and other trusted populations get grandfathered in. 
But, again, you are talking about 1.8 million people per day 
traveling, so you are talking about a significant portion of 
the flying public that is truly unknown to TSA, and yet goes 
through expedited screening.
    Chairman Johnson. And waving them through. OK. Well, I am 
out of time. Senator Carper.
    Senator Carper. Again, thanks so much for joining us today 
and for your testimony and for your work.
    Before we talk about some things that TSA needs to do 
better, let us talk about--each of you just maybe give us one 
thing that they are doing well. Give us just one thing that 
they are doing well, and, John, would you just lead us off 
there, please?
    Mr. Roth. I mean, certainly, and that is the hazard that I 
have in this occupation. I only focus on the negative as 
opposed to the positive.
    Senator Carper. We never do that in our jobs. [Laughter.]
    Mr. Roth. Certainly, the two people sitting to my left are 
people with courage to sort of see something that has gone 
wrong and try to fix it, and I suspect within the TSA 
population there are people every day, thousands of people who 
get up and put on that uniform and go to work and try to do 
their best every single day. Again, when you only focus on the 
negatives, you forget about the overwhelming majority of that 
population that really wants to do the right thing and cares 
about their job.
    Senator Carper. Let me just interrupt you for a second, and 
I want the others to speak. I fly a fair amount, not as much as 
some of my colleagues. Most of my next flights are on trains. 
But I have taken over the years to--when someone from TSA is 
actually doing a good job, they are polite, they are courteous, 
they are thorough, I thank them for what they do. They have no 
idea who I am. They think I am Ron Johnson. [Laughter.]
    Chairman Johnson. Is that a good thing or a bad thing?
    Senator Carper. Day to day, it is probably mixed.
    But that is something we might want to think of. One of the 
things that makes people like their job is they know what they 
are doing is important and they feel like they are making 
progress. We just had an interesting study about a month or two 
ago that said--it was very senior-level positions in the 
Federal Government, why people are leaving, and it is because--
one of the things is that, as hard as they work, they never get 
thanked. And it is a little thing, but it is something that we 
might want to keep in mind.
    On the other hand, when somebody is out of order, doing 
things inappropriate, I will tell them and tell them who I am.
    But, anyway, let me jump to Rebecca. Ms. Roering, give us 
one thing that they are doing well.
    Ms. Roering. I think risk-based security is a good 
procedure, and as long as there is not risks associated with 
it--99.999 percent of the traveling public simply wants to get 
from Point A to Point B safely and securely, and we need to 
focus on a way to quickly expedite those passengers and focus 
on that very small percentage of people that actually pose a 
threat to aviation security. The only way that we can do that 
is using a risk-based security approach.
    Senator Carper. All right. Thanks.
    Mr. MacLean, just very briefly.
    Mr. MacLean. Once again, I really like the PreCheck 
Program. It just blows away hay from that haystack so that we 
can get down to that one needle.
    Senator Carper. That is a good point.
    Mr. MacLean. And then the other program I really love is 
the VIPR Teams. I really want officers down deep in those 
airports establishing relationships with the guy whose job is 
to mop up hydraulic fluid. He probably is----
    Senator Carper. OK. Hold it right there. I am going to run 
out of time.
    Mr. MacLean. Sure.
    Senator Carper. Those are good points. Thank you.
    Ms. Grover, at least one good thing.
    Ms. Grover. Yes, sir. I would like to echo what you have 
previously heard and say that risk-based security at TSA has 
the opportunity to offer tremendous efficiencies. So I would 
encourage them to go ahead and continue to work on that.
    Senator Carper. All right. Good.
    The most important element of any organization I have ever 
been a part of or seen is leadership. If you have great 
leadership, you have a fighting chance to be successful. If you 
do not, you are probably doomed. And I think we have an--John 
Pistole was a good leader, had a lot of respect here, certainly 
by me and I think on a bipartisan basis. The President has seen 
fit to nominate Admiral Neffenger. I think he is an excellent 
choice, and we will have a hearing, and we are doing our 
vetting for him right now.
    Again, if Admiral Neffenger were here and you had the 
opportunity to say this would be a top priority for you, 
Admiral, what would a top priority be? Ms. Grover, what would 
you say?
    Ms. Grover. I would go back and echo the remarks that 
Chairman Johnson made at the beginning and just point out that 
TSA's primary mission is to ensure aviation security. And 
another important competing mission is to ensure the free flow 
of commerce and passengers. Those goals are in tension. And so 
at this time, when questions have been raised about whether or 
not the fundamentals are working properly, it is important to 
have a strong leader in place to be able to guide the 
organization to figure out how to balance those two elements.
    Senator Carper. Good. Thank you.
    Mr. MacLean, one piece of advice for Admiral Neffenger if 
he is confirmed.
    Mr. MacLean. More emphasis on protecting the flight deck or 
the cockpit.
    Chairman Carper. OK. Thank you. Ms. Roering.
    Ms. Roering. I think that the leadership of the agency is 
one that really focuses on wait times, and we need to focus 
less on wait times and be more concerned about detection rates 
and giving our officers the time they need to process the 
passengers and bags in a manner that they feel that is 
comfortable the bag does not contain a weapon or a prohibited 
item.
    Senator Carper. All right. Thank you. General Roth.
    Mr. Roth. I had the good fortune of meeting with the 
Admiral prior to one of his hearings, and I think the biggest 
thing that he needs to understand--and I think he does 
understand this--is an acknowledgment that there is a 
significant challenge here. I am not sure that that has been 
embraced TSA-wide. So in order to fix a problem, you have to 
fully understand it, and I think he is committed to doing that.
    Senator Carper. All right. My last question is similar to 
my first two: Give us some good advice. Just come back and pick 
up one point that you mentioned for us, a to-do list for us. 
GAO gives us its great high-risk list every 2 years. That is 
our to-do list in terms of ferreting out waste, fraud, and 
abuse. General Roth, I will ask you to give us one great ``to-
do'' for our list, besides maybe confirming a good leader, but 
give us one really good one.
    Mr. Roth. Understand the risks that you are attempting to 
manage. In other words, understand the risks behind the 
technology, understand the risks behind your management 
processes and manage against those risks. But if you do not 
understand those risks, you are not going to be able to manage 
against it.
    Senator Carper. Thank you. Ms. Roering.
    Ms. Roering. I will take one out of my statement, and that 
has to do with the fact that we have nobody in the field 
overseeing the numerous contracts that TSA has engaged in. We 
have no way to measure if the performance of the contracts is 
acceptable. Having contracting officer technical 
representatives (COTR) in the field would let us manage those 
contracts better so we are not wasting taxpayer dollars.
    Senator Carper. OK. Mr. MacLean, one quick one.
    Mr. MacLean. I would pass a law that gives flight 
attendants more training and authority to have passengers save 
their lives.
    Senator Carper. All right. Thank you. Ms. Grover.
    Ms. Grover. GAO is a data-driven organization, so I would 
like to see you hold TSA's top leaders accountable by asking 
for data on the effectiveness of their operations.
    Senator Carper. Good. What you cannot measure you cannot 
manage. Thank you.
    Chairman Johnson. Thank you, Senator Carper.
    I do have to give a shout out to my TSA TSOs in my gate 
area C in Milwaukee airport. I travel pretty light, but I did 
attend a Boy Scout event, and I was rushing to the airport. 
They gave me this little package I put in my briefcase, and it 
was a little Boy Scout knife, and they caught it. So, I mean, 
again, there are, I think, the vast majority of TSO and TSA 
employees that are trying to, in a very difficult task, stay 
alert and protect the public. That was my own little 
experience. I got caught. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman, and thank you, 
Ranking Member Carper, for calling this very timely hearing 
today, and I do want to thank all of our witnesses with us 
today. We appreciate your testimony very much.
    Senator Carper I think touched on a lot of the questions 
that I really had. I do believe that there has been an issue 
with a lack of consistency, and I think it is something that 
TSA has been suffering for from across the various aspects of 
the organization and its mission for a while now.
    But referenced in all of your testimonies really across the 
board is varying degrees of lack of certainty and consistency 
with people, processes, and operations. And these problems, 
whether it is the morale of the organization, the personnel, or 
the day-to-day operations, they are just so systemic. So you 
have mentioned some ideas on where you would like to see 
leadership go, a couple of suggestions for Congress. But bottom 
line, do you think it is really more of a management issue for 
the Admiral? Hopefully he will be confirmed shortly, but are 
these the issues that the Admiral can influence through his 
management style? Or is it something that needs to be addressed 
through legislation? I would like to hear the perspective that 
you have on that, one or the other or a combination of both. 
Ms. Grover, if you would start, please.
    Ms. Grover. I think it is really several issues. I do think 
that there is a concern about morale at TSA. As was mentioned 
earlier, morale at DHS as a Department is very low, and morale 
at TSA is even lower, and that does affect people's engagement 
to their work. But there are weaknesses in the equipment that 
TSA uses in terms of its effectiveness, and there are 
challenges in encouraging a workforce of 45,000 people to do 
the job properly every day. That is just a lot of people to 
manage. So it is morale, it is management, it is attention to 
the technical specifications of the equipment. And I would like 
to see TSA spending less time on standing up new programs and 
more time on making sure that the programs that they have stood 
up are working properly.
    Senator Ernst. That is good advice. Thank you. I appreciate 
that. Mr. MacLean.
    Mr. MacLean. Well, a big problem with the Air Marshal 
mission is there is nothing going on, which is a good thing. 
There are no arrests happening; there is no casework happening. 
As you would get in a CBP or a Border Patrol station, you have 
hundreds of thousands of arrests, hundreds of drug cases 
happening. So the managers are busy. They have things to do. 
But when an Air Marshal commits an infraction, it causes a huge 
ripple in the water, and a lot of the local managers do not 
want to make a decision on something, so they wait on 
headquarters to make it for them.
    So I think a possible solution is to put the Air Marshals 
underneath the purview of a pure law enforcement agency. There 
is a huge amount of former Border Patrol agents and CBPO 
officers in the Air Marshal Service, and they feel like it was 
when they were under the Immigration and Naturalization Service 
(INS). It was an agency that had conflicting missions. One was 
to naturalize people and then at the same time to catch and 
deport them. So they feel that is a problem. And because there 
is so little casework, so little to do--which is great because 
there is nobody dying, but bored managers are looking for 
something to do, or they are afraid to proactively take care of 
a situation until they get a phone call from D.C.
    Senator Ernst. So you would say to separate the two 
programs and empower, really empower those officers to do more?
    Mr. MacLean. Well, many Air Marshals say, ``Why don't we go 
under the purview of Customs and Border Protection?'' The 
facilities are already in all of the airports, and the 
management is already there. It could be a good transition.
    It happened once before. The original Air Marshal Director 
had put the Air Marshal Service underneath Immigration and 
Customs Enforcement (ICE), and he did that because he saw the 
Air Marshals burning out. They were bored. You hire these high-
speed, ``eager beaver'' guys and gals, and they get out there, 
and they are strapped down. So you have--it is like pressure 
cookers. Things happen. And he saw it. He saw it was going to 
be a quick burnout.
    So he put them into ICE in order for them to have a better 
career path and go into making arrests and starting 
investigations.
    Senator Ernst. Very interesting. I appreciate that.
    And then I do want to address some of what Senator Johnson 
alluded to in his statements about the recent media reports 
that indicated the Inspector General discovered that TSA failed 
to identify at least 73 people employed in the industry that 
were flagged under terrorism-related activity codes. And 
according to the TSA, part of the reason for this is that the 
agency is not authorized to receive all of the information 
under current interagency watchlisting policy. I have huge 
concerns with that as well as I am sure most of our public does 
as well.
    Employees are often granted special access without having 
gone through a thorough background check, and, Inspector 
General, if you could speak to that just very briefly.
    Mr. Roth. Sure. We share your concern, and your summary of 
what it is that we found is accurate. There is the Terrorist 
Identity Datamart Environment (TIDE) database. TSA by law did 
not have access to some of the codes. In 2014, the 
Administrator asked for access but, again, it is a process that 
apparently is taking some time, so it is not quite there yet. 
But I think they are moving quickly on it.
    Senator Ernst. OK. I thank you all very much for your 
testimony today.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Sasse.

               OPENING STATEMENT OF SENATOR SASSE

    Senator Sasse. Thank you, Mr. Chairman. Thank you for all 
of your testimony. And, Mr. Roth, thank you for the work that 
you and your team do.
    I wonder if you could unpack for us a little bit the 
structure of your organization. I think you have the largest IG 
office in the Executive Branch. Is that correct?
    Mr. Roth. No. I think we are No. 3.
    Senator Sasse. OK. How many----
    Mr. Roth. DOD and Social Security Administration (SSA), I 
think.
    Senator Sasse. How many employees do you have? And can you 
talk a little bit about the structure?
    Mr. Roth. Sure. We have approximately 700, about 670 
employees all together, and it is broken functionally into an 
audit function as well as an investigative function. So we have 
about 220 criminal investigators who do sort of internal 
affairs work. We are the internal affairs agency for Customs 
and Border Protection, ICE, really the largest standing law 
enforcement agency in the government.
    And then we have a separate section that does both 
inspections and audits, so we do the traditional sort of 
financial audits, but we do program audits, we do information 
technology (IT) audits. We do sort of inspections of various 
things, and write reports.
    Senator Sasse. And can you talk about the background of 
your investors and auditors, how diverse their experiences are?
    Mr. Roth. They are quite diverse. Certainly our criminal 
investigators are individuals that either grew up in sort of 
the IG world or came from different other law enforcement 
agencies. They are trained criminal investigators--they are 
armed and have arrest power like any other criminal 
investigator, Federal criminal investigator would have.
    Our auditors come from a variety of places, some within the 
Inspector General community, some from agencies, some from 
private businesses and private enterprise, all of whom are 
governed by sort of the GAO standards for auditing, the so-
called Yellow Book.
    Senator Sasse. Do you have a Red Team that reports to you?
    Mr. Roth. We do not, no. ``Red Team'' I think is a term of 
art that TSA uses to do internal testing, but we do not 
identify ourselves as ``Red Teams.''
    Senator Sasse. So in my understanding, the leaked report of 
last week that showed that there have been 70 attempts by your 
investigators to smuggle weapons or improvised explosive 
devices or fake explosive devices onto planes, the failure rate 
was 67 out of 70 times, a 96-percent failure rate. The public 
is taking some comfort in the idea that this investigation was 
supposedly done by ``super terrorists,'' is the term that is 
reported in the media, from the Red Teams. So the Red Teams are 
not yours, and this leaked report is yours.
    Mr. Roth. Again, I cannot confirm or deny any of the 
specific results or the specific methodology by which we did 
our testing. As I said, we do not identify ourselves as Red 
Teams. They are auditors that we use who are members of the 
Inspector General's office.
    Senator Sasse. I appreciate this, and I appreciate the 
classified briefings that you have given a number of us. I 
think what we hear you doing is clarifying that in your employ 
there are no Red Teams.
    Mr. Roth. Correct.
    Senator Sasse. Do you understand how the stories are out 
there that says that these were Red Team Investigations?
    Mr. Roth. We do not. I was as disturbed as anyone by the 
fact that this information got into the media. We have done a 
number of classified penetration testings with absolutely no 
incident of leakage. We have started an investigation, a 
preliminary investigation of this to try to determine exactly 
where the source of the leak was.
    Senator Sasse. Do you have any discomfort with the 
communication strategy of the Department that appears to be 
echoing these media testimonies? I will quote one from 
Secretary Johnson last week: ``Red Team testing of the aviation 
security network has been part of the TSA mission for 13 
years.'' There are indeed Red Teams at DHS. You are not going 
to in a non-classified setting clarify the nature of your 
investigation that was leaked, but I think we have heard you 
clearly say your employees are mostly auditors.
    Mr. Roth. That is correct.
    Senator Sasse. Thank you. Last week's report was just one. 
Can you tell us a little bit more about the number, both 
classified and unclassified, of TSA DHS IG reports that you 
have issued since 2004?
    Mr. Roth. I cannot give you an exact number. It is 
approximately a dozen, is my sort of best estimate of what we 
have done since 2004. We did a series of penetration testings 
in 2011, both penetration testing to determine the security of 
the so-called sterile area--being able to just move into the 
sterile area without any sort of examination--covert testing 
of, carry-on luggage through the screening process. We had done 
penetration testing of the AIT machine, the sort of first-
generation AIT machine, which is different than the ones we 
have done most recently, as well as penetration testing of the 
checked baggage process, and that report was earlier this year.
    Senator Sasse. And are all of your investigations 
ultimately briefed to the leadership of DHS?
    Mr. Roth. Yes.
    Senator Sasse. You said in testimony last month that TSA 
disagreed with most of your recommendations to a classified 
report on PreCheck, and you concluded, and I quote, ``We 
believe this represents TSA's failure to understand the gravity 
of the situation.'' Can you explain what that means?
    Mr. Roth. Well, certainly. And, again, this is involving 
the PreCheck Program, that there are a number of different ways 
that you can get expedited screening without actually having an 
application and your fee and your biometrics taken and your 
background sort of investigated to become a known traveler.
    We found some security vulnerabilities. In fact, as a 
result of a number of whistleblowers, including the ones 
sitting to my left, some security vulnerabilities. We 
investigated those. We wrote reports making recommendations 
that would eliminate those vulnerabilities. TSA declined to 
take our recommendations, so we are sort of sitting at 
loggerheads as we speak.
    Senator Sasse. Do you think it is possible that TSA could 
really have not understood how grave their problem was before 
last week's leaked report?
    Mr. Roth. It is something that we think about all the time. 
I mean, do they truly understand the nature of the risks that 
they face? Candidly, I worry about that.
    Senator Sasse. I am basically out of time, but I would like 
to ask, Director Roering, one question for you as well. From 
your statement, are you saying that regular passenger screeners 
have no metrics that have to do with their success or failure 
rate at interdicting weapons?
    Ms. Roering. That is correct.
    Senator Sasse. Thank you.
    Chairman Johnson. Thank you, Senator Sasse. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman, and I want to 
thank all of you for being here.
    I wanted to follow-up on a couple of questions. First of 
all, to understand that we have not been vetting the workers, 
the workforce against the FBI database. And then as I 
understood you, Mr. Roth, saying that, in fact, we still are 
not able to fully do that because of actually an access code 
issue. Could you let us know more about this? Because I have to 
say, I think all of us are quite shocked by this in terms of 
just basic common sense of we use the FBI background checks on 
people who deal with the public in a variety of contexts, and 
to not in this context just seems kind of mind-boggling that 
that step would not have been in place already.
    Mr. Roth. To do this, a little context on what lists we are 
discussing. There is sort of the large list, the Terrorist 
Identities Datamart Environment, which has information of 
individuals that is both verified and unverified. So it is the 
broader list from which gets called sort of the so-called 
terrorist watchlist.
    So what TSA did not have access to is certain codes within 
that larger environment. Again, some of this information is 
non-substantiated. Once TSA realized, I think around 2014, that 
they did not have this information, Director Pistole or 
Administrator Pistole signed a letter asking for that, and it 
is now sort of in that interagency environment in order to do 
it.
    We were able to, in the course of our audit, run 900,000 
names against the TIDE database. So as we sit now, I think we 
have some comfort and understanding what that environment looks 
like; in other words, the 73 individuals we believe is the sort 
of sum entirety of what was missed. We gave those names to TSA 
as soon as we discovered them, and I think they are following 
up on each of those.
    So, I mean, to the extent that there was a vulnerability, I 
believe it has been closed, but it certainly gives you pause 
that this situation was allowed to continue.
    Senator Ayotte. It does give you pause because it really 
only takes one versus 73 in this context, and as we sit here, 
even the fact that there is still a bureaucratic step that is 
not being expedited with this request being made by Director 
Pistole already in 2014, I just cannot imagine that the FBI 
would not have moved on this with the most haste that they 
could possibly move, given especially your recent undercover 
findings. So I think that is something we should follow-up on 
just as a matter of bureaucracy cannot hold this up when it 
comes to basic vetting that needs to be done.
    I also wanted to follow-up on the managed inclusion, what 
is being done with that, and I was interested also to see 
Director Roering refer to it as that PreCheck is being given 
out like Halloween candy in your written testimony. I think all 
of us think that PreCheck is a very important program for the 
public and access, but to the extent we do have a category of 
individuals that has grown exponentially, that is being used 
that may not go through the entire vetting process, if you 
could share with us what you are able to share here what you 
think would be better in terms of some reforms to focus the 
PreCheck process properly so that we really are allowing the 
members of the public to use it that should and still 
maintaining a thorough vetting of the individuals we should.
    Mr. Roth. The basic principle behind PreCheck is great 
because it is sort of this idea that if you are a known 
traveler, we have to spend less time on you than your unknown 
traveler, so really bringing PreCheck back to its basic form, 
which is we know who you are.
    We wrote this report. We have briefed Members of Congress. 
There is proposed legislation in the House of Representatives 
called the ``Secure and Expedited Screening Act,'' H.R. 2127, 
which basically directs TSA to bring it back to what it used to 
be, which is somebody looks at you and knows that you are a 
trusted traveler as opposed to some of these risk rules that 
they now apply.
    Senator Ayotte. I also wanted to follow-up--we heard a lot 
of discussion today about the vetting process, but one thing--
because I also serve as the Chair of the Aviation Subcommittee 
that has been an issue--is the SIDA badges and wanting to fully 
understand from all of you your perspective on TSA's role in 
issuing SIDA badges. Many of them are not being kept track of, 
and that responsibility is left to the local airports.
    What would you assess in terms of this issue? Is that a 
potential vulnerability? And what recommendations do you have 
on that front? That is to whoever would like to answer it.
    Ms. Grover. Sure. Well, so let me just start by saying that 
it is the airport's responsibility, and there are mechanisms 
that they have in place at the airport level to do regular 
checks with each of their contractors to make sure that the 
badges can be accounted for, and I believe that there is a 
trigger, like a 5-percent trigger, if a certain number of the 
badges have been lost, then they would all be reissued. So 
there are some controls in place, but I think that it is an 
issue that warrants additional attention.
    Mr. Roth. We are doing some work on that, given sort of the 
news that has been recently out there----
    Senator Ayotte. We have had some other incidences with the 
SIDA badges of deep concern.
    Mr. Roth. We are doing field work right now with regard to 
that, sort of being able to actually go to the sites and figure 
out whether or not the airport authorities are appropriately 
and properly accounting for the SIDA badges, whether or not TSA 
is doing their oversight responsibility in a prudent way, and, 
frankly, doing some testing to see whether or not we can 
piggyback into secure areas and those kinds of things.
    Senator Ayotte. Thank you.
    Ms. Roering. We also conduct tests where we will call the 
airport and report that an employee has been terminated to 
determine how quickly they turn off the access according to the 
badges. That was a special emphasis inspection activity that we 
did recently. While we found a couple of challenges, in most 
cases when the badge was reported as lost or missing, the 
airport did turn off the access associated with the badge.
    Senator Ayotte. Right. I thank all of you for being here. 
This is an important topic. And let me just say to Chairman 
Johnson's point, certainly the TSA agents that I interact with 
in Manchester on a regular basis, I think they are very hard 
working, and so putting together the right process for the 
people who are trying to do this job effectively every day and 
making sure that they have our support I think is important, 
and then also ensuring that those agents that are doing well 
are empowered to do their job, I think that is part of our 
function here as well. So thank you all.
    Chairman Johnson. Thank you, Senator Ayotte. Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you.
    You have no evidence right now that shows that contracted 
TSA is either cheaper or better, correct?
    Mr. Roth. I do not, no.
    Senator McCaskill. OK. And you are not aware of any that 
exist?
    Mr. Roth. Correct.
    Senator McCaskill. The magnetometer versus AIT, do we have 
numbers, good numbers, on the cost to operate and speed of use 
on those two different devices?
    Mr. Roth. We have not done any work in that area. I know 
that TSA itself has some metrics with regard to that, but I do 
not have that available.
    Senator McCaskill. Well, I feel like I am handcuffed 
because we do not have TSA here. I will request it from TSA if 
it is available. It is very obvious to me, because I am always 
looking for AIT, because I have a knee. So I either get 
somebody to touch me a lot, or I do AIT. I am TSA Pre. So even 
though you do not know this unless you start asking, I go 
through the TSA Pre line, and then I ask them to go over to the 
AIT machine.
    Now, it is catch-as-catch-can at airports. Some airports 
immediately accommodate you. Others say, ``No, you cannot do 
that.'' And then when you get there--every airport is a little 
different. It is like snowflakes. Some of them say that you get 
to leave your shoes on and everything in when you go through 
the other line, if you have your TSA preboarding pass with you. 
Others are no. So, it is kind of a mess. But I do not really 
care as long as I get to go through this instead of this.
    And about 50 percent of the time, they have the AIT shut 
down, and I have to ask for them to open it. And so they may 
have one sitting there. Now, some airports do not even have one 
sitting there. It was not until very recently they even had one 
at the Southwest terminal at Reagan.
    So I am curious if your work has focused on this, and maybe 
the Marshal can speak to this, too. Why are we not keeping 
those AIT machines going all the time at every facility? 
Because we spend a lot of money on them, and I know this is the 
whole thing of time versus safety and how quickly can we move 
people through, right? Is that what it is?
    Ms. Roering. Yes, you have hit the essence of the problem. 
It is much faster to expedite people through a metal detector 
than an AIT, but this is better security than going through a 
metal detector. A metal detector will not detect a nonmetallic 
IED, which is one of the biggest threats to aviation security.
    Senator McCaskill. Think of all the first-time travelers 
with knees and hips that are going through that magnetometer 
that do not know how much time they are going to save and how 
much time TSA is going to save if they go through the AIT 
instead, if they were to ask like I ask. I am worried that they 
are letting me use it because in some of the airports I am in, 
especially at home, they know who I am. And, that is really 
wrong. Anybody with a hip or knee ought to be told they should 
go through the AIT to save time and money--and, of course, be 
more safe. So I want to keep following up on this magnetometer.
    Now, why can't we have more AIT machines? Well, because we 
are cutting the budget. So we have to remember, as we all sit 
and pound the desk about how bad TSA is, we keep cutting the 
amount of money they have. And we ask them to do more and do it 
better. Clearly, one of the issues is, in fact, resources and 
how many people are working. The times I have gotten into 
difficult conversations with people at the airports about why 
the AIT is not open, they just say, ``We do not have the staff. 
It takes more staff to run it, and we just do not have the 
staff to run it.'' So I think that is also an issue.
    The Marshals. Are you saying now, Mr. MacLean, that they 
are not preboarding, the Marshals? Have they changed that?
    Mr. MacLean. It is hit or miss. It depends on where they 
are flying from. One thing they all tell me is that when they 
fly from international origins, they are paraded by the foreign 
agents.
    Senator McCaskill. I still see them preboarding. I mean, it 
is pretty obvious who they are.
    Mr. MacLean. Well, the way it should be done is they should 
be boarding with the passengers, and----
    Senator McCaskill. By the way, isn't that better security 
also, because aren't they commingling with the passengers, with 
more opportunities, with eyes and ears----
    Mr. MacLean. Absolutely.
    Senator McCaskill [continuing]. To figure out who there 
might be on that plane that might be a problem?
    Mr. MacLean. Correct.
    Senator McCaskill. When they roll up at the beginning of 
boarding and they go on, clearly they are not physically 
impaired, clearly they are not traveling with small children. 
Now, they are not in uniform, but usually they are in jeans, 
and then they are sitting in strategic places on the airplane 
when you get on.
    So I do not understand why--is this something that anybody 
can speak to? Why do they think it is a good idea to put these 
people on ahead of time?
    Mr. MacLean. We cannot dictate what the foreign countries 
can do.
    Senator McCaskill. No, but this is here in the United 
States.
    Mr. MacLean. I am not aware of that. I understand that that 
problem has been--that the Air Marshals have the option, 100 
percent option to board with the passengers. But most of the 
Air Marshals now are flying long routes to places where they 
are mandating preboarding. So the janitors see them. The 
workers on the front line----
    Senator McCaskill. I see them on my plane, and typically 
the planes I am going on are not longer than a 2-hour flight, 
and they are getting on ahead of time.
    Mr. MacLean. That is a problem.
    Senator McCaskill. Is that their option?
    Mr. MacLean. Yes, it is. As far as I am concerned----
    Senator McCaskill. Why can it be their option? Should they 
not be required to stand in line with everybody else and 
commingle?
    Mr. MacLean. I would like that, absolutely. And also at the 
same time they could be gauging suspicious activity.
    Senator McCaskill. Right. If you want them walking around 
the airport, a perfect place to walk around the airport and be 
among the airport is waiting in line with all the passengers.
    Mr. MacLean. Correct.
    Senator McCaskill. Is there a reason that they are being 
given the option? Do you know, Ms. Roering, since TSA is not 
here? Ms. Grover or Mr. Roth?
    Ms. Roering. I do not have an answer to that, but we could 
ask to find out and get back to you.
    Senator McCaskill. I mean, it is more convenient for them 
to get on first. It is nice not to have to wait. You do not 
have to get--especially if you are doing Southwest----
    Mr. MacLean. I can only speculate, but it is possible that 
the Air Marshals may not want to lose their overhead bin space.
    Senator McCaskill. Exactly. Just like all of us.
    Mr. MacLean. I am just speculating.
    Senator McCaskill. Yes, especially when you are traveling 
an airline like Southwest, which I fly frequently. Being at the 
front of the line----
    Mr. MacLean. Well, Southwest Airlines, it is a free-for-
all, for the most part.
    Senator McCaskill. Correct. But I bet we could figure out 
with Southwest how they could make sure that they have some 
seats at the front.
    Mr. MacLean. That all depends on how smart the flight 
attendants are going to run that operation.
    Senator McCaskill. OK. Well, I want to stay on the 
contractor versus employee. I need to talk to Mr. Dodaro about 
this, but it seems to me that you all ought to start putting in 
the audit from GAO, the budget for the year of which you are 
doing the work compared to the previous years. I think everyone 
needs to understand that there is a price to be paid for us 
continuing to cut and cut and cut the domestic side of Homeland 
Security, the domestic side of our national protection. It is a 
problem that we are seeing this year again that we are going to 
create a $40 billion slush fund in the Department of Defense, 
but yet we are going to shortchange port security, airport 
security, cybersecurity, the Central Intelligence Agency (CIA), 
FBI, all in the name of holding on to an ill-conceived 
sequestration number. So I think you guys should think about 
doing that.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill. When we are 
talking about resourcing, I do have to throw out the word 
``prioritization,'' so we need to look at priority of spending. 
You can also rest assured this will just be the first in a 
series of hearings on TSA.
    Senator McCaskill. So I will get a chance at TSA?
    Chairman Johnson. Yes, and we can talk about Boarding Group 
B on Southwest Airlines for folks. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman. I very much 
appreciate your holding this very valuable hearing.
    I also want to thank the witnesses and especially our 
whistleblower witnesses for being here to share your stories 
and your experience. And a special thanks to Ms. Roering. You 
raised the alarm on inadequate PreCheck background checks, and 
as you are stationed at the Minneapolis-St. Paul International 
Airport where, as the Chairman and I know, many of our 
constituents fly in and out of on their way to other 
destinations, we appreciate your leadership.
    I wanted to follow-up on a line of questioning that some of 
the previous Senators went down with Mr. Roth just so I 
understand it very specifically.
    With regard to TSA access to the terrorism-related 
information in these databases and, in particular, the lack of 
access to certain codes, I thought I heard you say earlier that 
there was a statutory impediment. And then you indicated that 
it is in the process of being worked out bureaucratically 
between agencies. And I want some clarity for our Committee as 
to whether we need to see legislation on this pushed through in 
an expedited fashion or whether this is on the verge of being 
resolved between agencies.
    Mr. Roth. Thank you for that question, and my apologies for 
the confusion. As I understand the process, it is sort of an 
administrative process that is done within the government 
itself. There is not a need for legislation.
    Senator Baldwin. OK.
    Mr. Roth. I think the access to that information is 
generally governed by statute, but it does not require a 
statutory fix for TSA to apply to have access to those codes, 
only, for example, if the Committee that decides whether or not 
TSA has access to the codes, for some reason refuses that 
access, then there may be a statutory fix that would be needed. 
But until that process goes all the way through, I think that 
is what needs to occur.
    Senator Baldwin. While I am on the topic of legislative or 
policy changes that we should be aware of, I think most of the 
testimony that I have heard points to leadership, points to 
management, points to following the rules that are already in 
place or examining that, all of which the agency would have the 
authority to do as it currently stands. Please highlight for 
me, each of you, if there is anything in your testimony that we 
should pay attention to that requires a statutory change. 
Anybody?
    [No response.]
    OK. Thank you.
    I wanted to have you, Ms. Roering, speak a little bit 
further about this issue of performance metrics that are skewed 
toward timeliness rather than accuracy. I know you touched on 
this briefly in response to Senator Carper. But can you 
elaborate more on performance measures that track wait times 
and those that track the ability to detect weapons or 
explosives and how that affects both safety and TSO 
performance?
    Ms. Roering. Thank you for the question, Senator Baldwin. 
When there is an excessive wait time, which by definition for 
TSA is currently over 20 minutes in a regular lane and 5 
minutes in a PreCheck lane, there is immediate reporting 
required through our coordination centers to the regional 
offices and ultimately to headquarters. That report requires a 
thorough analysis of the individual number of TSOs that were 
out for training or called off sick and scheduled absences. 
There is just a lot of focus and a lot of information that is 
needed to be gathered when we have excessive wait times.
    In terms of our monthly testing, which is conducted by my 
inspectors, we brief the FSD basically once a month on the 
results of the tests. There is no metric associated with it. 
The test results are shared among screening management, but, 
quite honestly, there is just no metric to focus on the 
detection rates and whether or not that would reflect badly on 
the FSD's scorecard.
    Senator Baldwin. Mr. MacLean, you have brought to our 
attention a lot of information about the threat of IEDs, and 
certainly given the failed bombing attack of the Shoe Bomber 
and the Underwear Bomber and these sort of things, the evolving 
ability of terrorists to assemble miniature IEDs and remotely 
detonate them or, as you described, the increased threat of 
larger IEDs in the airport perimeter are huge concerns.
    You have already commented a little bit further in the 
questioning, but how do you believe resources should be 
reprioritize to better protect against these threats? And if 
you could elaborate a little bit more about the VIPR Teams that 
you were talking about earlier in that capacity to help address 
this threat.
    Mr. MacLean. I am glad you asked that because I really want 
to talk about it.
    Once again, if the PreCheck is done well, it reduces the 
time that the screeners need to focus on non-threatening 
passengers. So I would like to see those TSOs participate more 
on VIPR Teams, and then the four points that I mentioned on the 
physical security implementation on the aircraft so that you 
can get more Air Marshals on the ground into those VIPR Teams.
    I love that thought of--and these are not teams that I want 
down there ripping and arresting anybody that they see. This is 
purely trying to build rapport from the local authorities all 
the way down to janitors and cooks. For instance, you might 
have a cook that sees something every day, the same thing, but 
one time he reported it to his boss, who might be some 
knucklehead who just says, ``I do not have time for this. You 
are not a cop. Quit playing cop. I have better things to do.'' 
So he is frustrated. So, he does not go--he barely speaks 
English. He does not want to go forward with it. But if there 
is that uniform VIPR guy who has built a rapport with him, asks 
him about his family, is very interested in what he sees every 
day, he might come to him for something that is out of the 
ordinary, and that little thing just may be that IED that Air 
Marshals are scared to death to be stuck flying with.
    Senator Baldwin. Thank you.
    Chairman Johnson. Thank you, Senator Baldwin. Senator 
Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. I thank all of you for your work on this. 
Millions of Americans fly every day, and they are very 
dependent on what is happening with TSA and the security and 
what you all are also bringing to the table both from 
whistleblowing and from doing basic inspections. So I 
appreciate what you are doing to be able to help out the 
American people in this. It is extremely important.
    Let me run through just a couple different questions here.
    Mr. Roth, you have in your testimony that you ``have 
repeatedly found that human error--often a simple failure to 
follow protocol--poses significant vulnerabilities.'' What do 
you attribute that to? Is that systemic? Is that training? Is 
that management? Is that morale? Where is that coming from?
    Mr. Roth. I would say it is all of the above, Senator. I 
think it does involve training, it does involve morale, it does 
involve management. You have an enormously large distributed 
workforce. But you are right; it is one of these things that 
you have to follow the SOP every time. If you do not, that is 
where we find the vulnerabilities.
    Senator Lankford. OK. So there are all kinds of 
accountability built into the system for time and efficiency. 
You were talking about that before. So if you go past 5 minutes 
in PreCheck or past 20 minutes in the regular line, there are 
all kinds of accountability. But is there the same kind of 
accountability structure built in for someone that is not 
following protocol?
    Mr. Roth. I am not aware of that. I will leave it to the 
other witnesses.
    Senator Lankford. Have other folks seen that? Or has the 
standard really become a time-based standard at this point?
    Ms. Roering. It is a time-based standard, but if our TSOs 
do not follow SOP, the agency treats that as a conduct issue 
versus a performance issue, which, again, impacts the morale.
    Senator Lankford. Sure. And TSA agents and what is 
happening in the Department of Homeland Security on the whole 
has just been terrible morale on the whole. These are great 
folks, and the people that I have traveled back and forth with 
in Oklahoma City, where I catch a flight every single week, are 
terrific folks and extremely friendly, very engaged. They 
understand the value of what is going on. They are great folks. 
But the morale seems to continue to come in time and time again 
bad. That does not help us as the traveling public.
    Let me go through a couple things here as well. Mr. Roth, 
also, there have been ongoing issues with procurement with TSA, 
both getting equipment that is outdated, getting the wrong 
equipment, getting too much equipment that is stored in a 
warehouse, and this has been an ongoing problem. Is it getting 
better?
    Mr. Roth. It is hard to determine that at this point. 
Certainly, the kinds of work that we have been doing shows that 
this is a continual problem. We just did a report, for example, 
with regard to TSA maintenance contracts where it is about a 
$1.2 billion set of contracts over the course of 4 years in 
which TSA does not have the ability to understand whether or 
not routine maintenance is, in fact, being performed, or 
whether they are being billed for things that actually 
occurred.
    Senator Lankford. So basic sustainment.
    Mr. Roth. Correct.
    Senator Lankford. OK. So what is happening on the 
procurement side? Because there are lots of folks that are 
vendors that are rushing into this space now because they know 
there is a very large market when something is purchased. Is 
there a good standard of improvement there to say this piece of 
equipment is 2 percent better? Is that enough to be a multi-
million to multi-billion-dollar contract? How are the standards 
for procurement coming out to try to increase our 
effectiveness?
    Mr. Roth. Certainly DHS-wide this is one of the emphasis 
areas of the Secretary. He is trying to professionalize the 
acquisition process within DHS. TSA is obviously part of that. 
I cannot speak to sort of how it is working on current 
acquisition projects, but it is something that, frankly remains 
a challenge.
    I will say, for example, the AIT machines, that is a single 
vendor, so there is no real competition in the market for what 
is a very significant capital purchase.
    Senator Lankford. OK. We have had a lot of conversation 
this morning about PreCheck and about how in PreCheck you have 
a million people that have gone through that process of 
PreCheck, what was the number? 7 million people that are now 
basically authorized to go through it at some point through 
other different variations.
    Do we need to change the name from ``PreCheck'' to 
something else? Because we have a large number of people that 
are really not being prechecked. They are just being expedited 
through this process. Am I getting that correct?
    Ms. Grover. Yes, sir. That is correct, and particularly for 
people who are selected at the airport, these are not 
individuals who were previously identified as low risk. And so 
TSA's premise is that they are providing real-time threat 
assessment through the use of Behavior Detection Officers and 
explosives detection. But we have raised concerns about the 
lack of effectiveness data on the BDOs, and during the time of 
our review, we found that TSA was not consistently using the 
explosive trace detection as their protocols called for. So 
there is a need for more attention to that.
    Senator Lankford. If I remember the report correctly from 
reading through it--and you can correct me on this if I get it 
wrong--basically when they were evaluated for behavioral 
detection, it did not come out any different than just random 
chance did.
    Ms. Grover. Yes, sir, that is right.
    Senator Lankford. OK. Well, that is not really PreCheck at 
that point. It is difficult to call the line a PreCheck line 
when there is really a no-check portion of it where part of it 
has gone through--they have done a thorough vetting process and 
part of it is just random chance that they are going through 
it. So my understanding is this is a faster process because 
they have done a more thorough background than this one.
    Mr. MacLean, I understand what you were saying before. 
There is great benefit to be able to help separate, as you said 
before, to be able to blow some of the hay off the stack so it 
is easier to find the needle. I get that completely. But we 
cannot call it ``PreCheck'' if it is really no-check and 
PreCheck combined.
    Mr. MacLean. Well, I will tell you, you are familiar with 
Secure Electronic Network for Travelers Rapid Inspection 
(SENTRI)?
    Senator Lankford. Yes.
    Mr. MacLean. I know a Border Patrol agent, active duty, who 
applied for SENTRI. He got denied because when he was a 
juvenile, he got into a fight, and he cannot have a SENTRI 
pass. So it may be some things are just not being put together 
and implemented right.
    Senator Lankford. Right.
    Mr. MacLean. But I love the program just because----
    Senator Lankford. Well, no, I am good with the program on 
it because it is a reasonable thing, because there are a lot of 
Americans that are regular fliers, they want to go through 
that, they want to go through the vetting, and to be able to go 
through the line that is a faster line in a PreCheck-type line. 
My statement is: If it is PreCheck, let us really have it 
prechecked. If they are a Trusted Traveler, I have no problem 
with that, because there are high standards for that. If they 
are active-duty military, I have no problem with that. But if 
we have folks that are just randomly coming to the airport and 
they say, ``You do not look like a terrorist, so I am going to 
put you over there,'' that is not really PreCheck at that 
point. We have another line for that. And we need to be able to 
evaluate that as well.
    There are 73 people--and I know others have already talked 
about this as well--73 folks that the IG reported were--that 
their code was related to terrorism. I would assume that means 
they are on the no-fly list. These were individuals that TSA 
had allowed to go through the system as employees kind of 
behind the perimeter there.
    Mr. Roth. They would not necessarily be on the no-fly list. 
The TIDE list is a very sort of broad list of terrorist 
identities, some of which is verified and some of which is not 
verified. The no-fly list is a subsection of that TIDE list.
    Senator Lankford. OK, of that larger list.
    Mr. Roth. Yes.
    Senator Lankford. That is going to be corrected where there 
is access now, and how quickly can that be corrected where that 
record can be tied into TSA and so they can have access to be 
able to look at both?
    Mr. Roth. I do not have that information with me. I know 
that the specific 73 names we did report back to TSA, and they 
are taking action on those folks.
    Senator Lankford. But we do not have an idea at this point 
how fast they could take action on that, just to be able to do 
it as a follow-up?
    Mr. Roth. I am sorry. I do not.
    Senator Lankford. OK. We will follow-up on that in the days 
ahead and find out the speed of that and so we can be able to 
sync all those lists together. Thank you.
    Chairman Johnson. Thank you, Senator Lankford.
    Just a quick follow-up on that. Inspector General Roth, you 
are saying we do not need legislation, that the authority 
already exists, that it is just a matter of will to do it?
    Mr. Roth. That is my understanding.
    Chairman Johnson. OK. I want, to a certain extent, to 
summarize some of the things we have heard. We are really 
basically trying to detect two things: either explosives or 
weapons. The failure with the AITs, obviously we put those in 
place to try and detect explosives because metal detectors do 
not. And so we use the AITs, and now weapons are getting 
through.
    Wouldn't a pretty simple solution be either two views 
through the AIT--I do not want to discuss exactly where the 
failure is, but, a frontal and a side view, as well as put a 
metal detector on the other side. That would be a relatively 
simple solution that would certainly increase our rate of 
detection. Is that not true?
    Mr. Roth. I would assume it would be for weapons.
    Chairman Johnson. OK. That leaves us with explosives. What 
work has been done in terms of bomb-sniffing dogs? I have read 
some things. I do not have it right now that I can cite. Bomb-
sniffing dogs are extremely effective. Can anybody speak to 
that? Mr. MacLean, you are shaking your head.
    Mr. MacLean. I worked at a Border Patrol checkpoint. I was 
blown away with what a dog can sense. I have seen heroin 
wrapped in coffee, duct tape, Saran Wrap, hermetically sealed, 
and then dunked in a tank of gasoline, and the tank sealed and 
secured, and the dog still hits on it.
    So if they can do that with drugs, if they can do that with 
bombs, they are amazing. They are amazing creatures.
    Chairman Johnson. Ms. Roering.
    Ms. Roering. Currently, the regulatory program has 
oversight for the passenger screening canine program, and I 
have witnessed at various locations the use of a decoy where an 
individual would be carrying an explosive in a backpack or on 
their person, and in every case the dog was able to detect the 
explosive and also very favorable results with that program.
    Chairman Johnson. Ms. Grover.
    Ms. Grover. Yes, sir, TSA has about 800 canine teams total 
now, and they have been found to be effective. They are 
expensive.
    Chairman Johnson. Well, so is the $7.2 billion we are 
expending on, again, security theater.
    Ms. Grover. Yes, sir.
    Chairman Johnson. Again, let me be clear: I think security 
theater to a great extent does deter. I think we need, as Mr. 
MacLean was talking about, layered defense. We need to think 
outside the box. We have to think smarter. And so from my 
standpoint, if you have a very high percentage in terms of 
effectiveness of a bomb-sniffing dog, I think that solution is 
pretty obvious, isn't it?
    Inspector General Roth, can you speak to that?
    Mr. Roth. I think it is important for TSA to look at all 
options and to figure out exactly what is going to work, but 
try different things. This reliance on cutting-edge technology 
clearly has its challenges to it, so I would agree with you 
that they need to start to look at other things as well.
    Chairman Johnson. I mean, isn't part of the problem as 
Americans we watch movies and we always have a silver bullet 
technological solution, and we are finding out that these 
technological solutions are failing at a very high rate. And so 
maybe we need to step back a little bit and go, well, what 
actually works. Again, I would argue a bomb-sniffing dog, they 
may be expensive, but if we are not 100 percent effective, 
think of how expensive that will be.
    Ms. Grover, do you know exactly how expensive are these 
units? Have you done a study on that? Can you illuminate the 
Committee on that?
    Ms. Grover. So I believe that the startup costs are about 
$100,000 for the conventional canines and in the neighborhood 
of $220,000 for the passenger screening canines (PSC), and then 
an annual cost thereafter of about $60,000 a year for the 
conventional canines and about $160,000 a year for the PSC 
canine teams.
    Chairman Johnson. So I would really love to have the GAO 
provide us a report that takes those costs, multiplies those 
times the number of teams we actually have to have pretty full 
coverage in U.S. airports.
    Mr. MacLean, you look like you are chomping at the bit 
here.
    Mr. MacLean. Well, remember, every canine comes with an 
officer----
    Chairman Johnson. Precisely.
    Mr. MacLean [continuing]. Who has a keen sense of feeling 
people out, reading faces, building rapport. Sometimes having a 
dog with you, people approach you or you become more 
approachable.
    Chairman Johnson. Again, my point is what we are doing 
clearly is not working, and so we have to think outside the box 
and look for a different solution.
    Mr. MacLean, I do want to give you the opportunity, because 
you were not able to tell your story of whistleblowing, and I 
really do want you to tell your story and how you were 
retaliated against, because that has been a problem that I have 
seen repeatedly now in my 4 years of people that have the 
courage in the Federal Government, coming forward, telling a 
story that has to be told, and then they are retaliated 
against, which has a very chilling effect on those individuals 
that we do need to come forward. So, please, take this 
opportunity to tell your story.
    Mr. MacLean. Well, in July 2003, it kind of accidentally 
fell into my lap. After a lot of problems with us preboarding 
before the passengers, having to wear somewhat of a uniform to 
get on every flight, we were brought in for an unprecedented 
emergency suicidal al-Qaeda terrorist hijack emergency 
briefing, and we were all told that in any moment we were going 
to be under attack, and the flight deck was going to be 
breached, and those aircraft were going to be flown into east 
coast United States targets and European capitals.
    Just 2 days afterwards, all Air Marshals got an unsecured 
text message sent to their unsecured phone instead of their 
encrypted smartphones, a message that we want everyone to avoid 
late cancellation fees, therefore, we need to have everyone 
cancel their hotel rooms indefinitely.
    Later on, the GAO and the Inspector General discovered that 
that was going to be the plan until the new fiscal year. So for 
60 days or longer, any aircraft that was going to fly 4 hours 
or longer was not going to have an Air Marshal team on them.
    First of all, we thought it was sort of a test. We get this 
text message that made no sense to us 2 days after this 
emergency briefing, so I just wanted to confirm it with the 
supervisor, and the supervisor told me, he goes, ``We have run 
out of money, and we are going to have to fly puddle jumpers 
until something happens.''
    Chairman Johnson. This occurred when? When did this 
briefing----
    Mr. MacLean. Late July 2008.
    Chairman Johnson. OK.
    Mr. MacLean. So afterwards I called the Inspector General 
hotline, and I got routed to two other offices----
    Chairman Johnson. We need to stand in recess for this 
Committee hearing. Apparently, the Capitol Police is clearing 
this so--we should be locked down and stay in place?
    OK. We are clearing the floors. So if you could in an 
orderly fashion please exit as quickly as possible. Thank you.
    [Recess.]
    I would like to gavel this hearing back in.
    It is unfortunate what happened here as we were concluding 
this hearing. A threat was called in. In today's world, we have 
to take those threats very seriously.
    I want to commend the Capitol Police for acting responsibly 
and swiftly. We cleared the hearing room. We cleared the floor. 
Fortunately, the threat was determined to be false.
    But, again, that is the world we live in today. It is very 
unfortunate.
    Suffice it to say that this is going to be the first in a 
series of hearings in terms of the challenge that the TSA has 
in trying to really succeed in its dual mission of keeping this 
Nation safe, identifying every possible threat, preventing 
those things from harming any American, and at the same time 
allowing efficient throughput so that Americans do not wait 
excessively in lines and do not miss flights or any form of 
transportation.
    So we will continue to explore this. I will continue to 
work with Secretary Jeh Johnson. I will continue to work with 
the new TSA Administrator, Vice Admiral Neffenger, and ask 
those gentlemen to think outside the box, take a look at the 
priorities that we need to establish in terms of being most 
effective and most efficient at providing the kind of security 
and traveling convenience that we possibly can within the TSA.
    So with that, the hearing record will remain open for 15 
days, until June 24 at 5 p.m., for the submission of statements 
and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 1:33 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
